                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 5, 2009



Mr. Ray Young
General Motors Corporation
300 Renaissance Center
Detroit, MI 48265

Dear Mr. Ray Young,
 
The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 5, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 5, 2009



Mr. David C. Walker
GMAC LLC
200 Renaissance Center
Detroit, MI 48265

Dear Mr. David C. Walker,
 
The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 5, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 5, 2009



Jan A. Bertsch
Chrysler LLC
1000 Chrysler Drive
Auburn Hills, MI 48326

Dear Jan A. Bertsch,
 
The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 5, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220

                                     February 5, 2009



Mr. David L. Herzog
American International Group, Inc.
70 Pine Street
New York, NY 10270

Dear Mr. David L. Herzog,
 
The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General for
Troubled Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and
conducting audits and investigations of any program established by the Secretary of the Treasury
under the act. As part of an audit into TARP recipients’ use of funds and their compliance with
EESA’s executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

                   (1) A narrative response specifically outlining (a) your anticipated use of
                       TARP funds; (b) whether the TARP funds were segregated from other
                       institutional funds; (c) your actual use of TARP funds to date; and (d)
                       your expected use of unspent TARP funds. In your response, please take
                       into consideration your anticipated use of TARP funds at the time that
                       you applied for such funds, or any actions that have taken that you would
                       not have been able to take absent the infusion of TARP funds.

                   (2) Your specific plans, and the status of implementation of those plans, for
                       addressing executive compensation requirements associated with the
                       funding. Information provided regarding executive compensation should
                       also include any assessments made of loan risks and their relationship to
                       executive compensation; how limitations on executive compensation will
                       be implemented in line with Department of Treasury guidelines; and
                       whether any such limitations may be offset by other changes to other,
                       longer-term or deferred forms of executive compensation.
February 5, 2009
Page 2
 

In connection with this request:

                      (1) We anticipate that responses might well be quantitative as well as
                          qualitative in nature regarding the impact of having the funds, and we
                          encourage you to make reference to such sources as statements to the
                          media, shareholders, or others concerning your intended or actual use of
                          TARP funds, as well as any internal email, budgets, or memoranda
                          describing your anticipated use of funds. We ask that you segregate and
                          preserve all documents referencing your use or anticipated use of TARP
                          funds such as any internal email, budgets, or memoranda regarding your
                          anticipated or actual use of TARP funds.

                      (2) Your response should include copies of pertinent supporting
                          documentation (financial or otherwise) to support your response.

                      (3) Further, I request that, your response be signed by a duly authorized senior
                          executive officer of your company, including a statement certifying the
                          accuracy of all statements, representations, and supporting information
                          provided, subject to the requirements and penalties set forth in Title 18,
                          United States Code, Section 1001.

                      (4) Responses should be provided electronically within 30 days to SIGTARP
                          at SIGTARP.response@do.treas.gov, with an original signed certification
                          and any other supporting documentation mailed to: Special Inspector
                          General – TARP; 1500 Pennsylvania Avenue, NW; Suite 1064;
                          Washington, D.C. 20220.

We think this initiative is vital to providing transparency the TARP program and the ability of
SIGTARP and others to assess the effectiveness of TARP programs over time. If you have any
questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my Deputy
Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
